No. 20IN THE

Supreme Court of the United States
Cynthia Rollo-Carlson, as Trustee for Jeremiah Flackus-Carlson, deceased,
Petitioner
V.
United States of America,
Respondent

On Petition For A Writ Of Certiorari
To The United States Court of Appeals For The Eighth Circuit

PETITION FOR WRIT OF CERTIORARI

Brian K. Lewis
Counsel of Record
Francis White Law, PLLC
8362 Tamarack Village, Suite 119-220
Woodbury, Minnesota 55125
651-829-1503
brian.lewis@franciswhitelaw.com
S. Ct. Bar ID #351120

QUESTION PRESENTED
Under 28 U.S.C. §2675(a), is the requirement that an agency be presented with
evidence of the claimant's authority to act during the administrative claims process
jurisdictional in nature?

11

RELATED PROCEEDINGS
Department of Veterans Affairs Office of General Counsel (Hines, Illinois):
Claim in Administrative Process, (Aug. 30, 2017), (no docket number assigned)
United States District Court for the District of Minnesota:
Cynthia Rollo-Carlson, and Douglas Carlson v. United States of America, No.
18-cv-996 (Aug. 27, 2018)
Benton County District Court, Benton County, Minnesota:
In the Matter of the Appointment of a Trustee for the Next of Kin of Jeremiah
Flackus-Carlson, No. 05-CV-18-1848 (Oct. 2, 2018)
United States District Court for the District of Minnesota:
Cynthia Rollo-Carlson, as trustee for Jeremiah Flackus-Carlson, deceased v.
United States of America, No. 18-cv-2842 (Mar. 18, 2019)
United States Court of Appeals for the Eighth Circuit:
Cynthia Rollo-Carlson v. United States of America, No. 19-1815 (Aug. 19, 2020);
rehearing en banc denied (Oct. 23, 2020)

111

TABLE OF CONTENTS

QUESTION PRESENTED
RELATED PROCEEDINGS

ii

TABLE OF AUTHORITIES
PETITION FOR A WRIT OF CERTIORARI

iv

OPINIONS BELOW

1

JURISDICTION

1

STATUTORY PROVISIONS INVOLVED

1

STATEMENT

2

1

A. Factual Circumstances

2

B. Procedural Posture

3

REASONS FOR GRANTING THE PETITION
A. The Evidence of Authority Requirement in Presentment Cannot be
Jurisdictional under this Court's Precedent
B. There Is a Circuit Conflict

4
6
9

1.

Seven Circuits Have Adopted the Minimal Notice Requirement

10

2.

Two Circuits Follow the Case-by-Case Examination Method

15

3.

One Circuit Follows the Full Notice Test

16

4.
Excepting the Federal Circuit, All Circuits Have Spoken and Not of One
Voice 16
IMPORTANT QUESTION

17

THIS CASE IS A GOOD VEHICLE FOR RESOLVING THE DISPUTE
CONCLUSION

18

APPENDIX A — Eighth Circuit Denial of Rehearing en, bane

la

APPENDIX B — Eighth Circuit Opinion

2a

APPENDIX C — District Court Opinion
APPENDIX D — Agency Denial
APPENDIX E — Agency Acknowledgment of Claim

7a
20

APPENDIX F — Relevant Statutory Language

20

APPENDIX G — Relevant Regulatory Language

20

20

20

iv
TABLE OF ATJTHORTIES
Cases
Ahmed v. United States, 30 F.3d 514 (4th Cir. 1994)

11

Blair v. IRS, 304 F.3d 861 (9th Cir. 2002)

13

Bradley v. United States, 951 F.2d 268 (10th Cir. 1991)

13

Chronis v. United States, 932 F.3d 544 (7th Cir. 2019)

5, 9, 16

Cizek v. United States, 953 F.2d 1232 (10th Cir. 1992)

13

Clay v. United States, 537 U.S. 522 (2003)

5

DePierre v. United States, 564 U.S. 70 (2011)

6

Douglas v. United States, 658 F.2d 445 (6th Cir. 1981)

13

Dynamic Image Technologies, Inc. v. United States, 221 F.3d 34 (1st Cir. 2000)

10

Estate of Trentadue ex rel. Aguilar v. United States, 397 F.3d 840 (10th Cir. 2005)
10,13,14
Feres v. United States, 340 U.S 135 (1950)

18

Fort Bend County, Texas v. Davis, 139 S. Ct. 1843 (2019)
GAF Corp. v. United States, 818 F.2d 901 (D.C. Cir. 1987)
Gilliard v. Mississippi, 464 U.S. 867 (1983)

6, 7
passim
11, 17

Holloway v. United States, 845 F.3d 487 (1st Cir. 2017)

11

In the Matter of the Appointment of A Trustee for the Next-of-Kin of Jeremiah FlackusCarlson (05-CV-18-1848)(Benton Cty. Dist. Ct. of Minn.)(Oct. 2, 2018)
ii, 4
Kanar v. United States, 118 F.3d 527 (7th Cir. 1997)

15, 17

Kisor v. Wilkie, 137 S Ct. 2400 (2019)

7, 8

Lehman v. Lycoming Cty. Children's Servs. Agency, 458 U.S. 502 (1982)
Mader v. United States, 654 F.3d 794 (8th Cir. 2011)(en banc)

5
passim

Mathis v. Shulkin, 137 S. Ct. 1994 (2017)

17

McNeil v United States, 508 U.S. 106 (1993)

9

Motta ex rel. A.M. v. United States, 717 F.3d 840 (11th Cir. 2013)

14

Pleasant v. United States ex rel. Overton Brooks VAH, 764 F.3d 445 (5th Cir. 2014)
5,9, 12
Rollo-Carlson v. United States, 971 F.3d 768 (8th Cir. 2020)(reh 'g den.)

ii, 1, 4

Rollo-Carlson v. United States, 2019 WL 1243017 (D. Minn. Mar. 18, 2019)

ii, 1, 4

Romulus v. United States, 160 F.3d 131 (2d. Cir. 1998)

10, 15

Santiago-Ramirez v. Sec'y of Dep't of Defense, 984 F.2d 16 (1st Cir. 1992)

10

Schaefer v. United States, 2014 WL 585365 (S.D. Ohio Feb. 14, 2014)

13

Skwira v. United States, 344 F.3d 64 (1st Cir. 2003)

10, 11

Trentadue v. United States, 386 F.3d 1322 (10th Cir. 2004)

13

Tucker v. U.S. Postal Service, 676 F.2d 954 (3d. Cir. 1982)

11

United States v. Kwai Fun Wong, 135 S. Ct. 1625 (2015)

8

United States v. Testan, 424 U.S. 392 (1976)

5

Walker v. United States, 616 Fed. Appx. 497 (3d Cir. 2015)

11

Warren v. U.S. Dep't. of the Interior Bureau of Land Mgmt., 724 F.2d 776 (9th Cir.
1984)(en bane)
5, 9, 13
Washington v. Dep't. of the Navy, 446 F. Supp. 3d. 20 (E.D.N.C. 2020)

12

Federal Statutes
28 U.S.C. §1254(1) (2019)

1

28 U.S.C. §1346(b)(1) (2019)

6

28 U.S.C. 2401(b) (2019)

19

28 U.S.C. §2671 (2019)

7

28 U.S.C. §2672 (2019)

passim

28 U.S.C. §2675 (2019)

passim

38 U.S.C. §1720D (2019)

3
Federal Rules

28 C.F.R. §14.2(a)

passim

Minnesota Statutes
Minn. Stat. §358.06 (2019)

4

Minn. Stat. §573.02 (2019)

12

PETITION FOR A WRIT OF CERTIORARI
Petitioner Cynthia Rollo-Carlson respectfully petitions for a writ of certiorari to
review the judgment of the United States Court of Appeals for the Eighth Circuit in
this case.
OPINIONS BELOW
The opinion of the Eighth Circuit is published at 971 F.3d 768 (8th Cir. 2020).
The opinion of the United States District Court for the District of Minnesota is not
published in the Federal Supplement but is available at 2019 WL 1243017 (D.
Minn. Mar. 18, 2019).
JURISDICTION
The Eighth Circuit issued its opinion and entered judgment on August 19, 2020.
A timely petition for rehearing and rehearing en bane was filed on October 1, 2020
and denied on October 23, 2020. This Court's Order of March 19, 2020 extended the
deadline to file a petition for a writ of certiorari due on or after the date of the order
to 150 days from the date of the lower court judgment, order denying discretionary
review, or order denying a timely petition for rehearing. This Court has jurisdiction
under 28 U.S.C. §1254(1).
STATUTORY PROVISIONS INVOLVED
Relevant statutory and regulatory provisions are reproduced at Pet. App. 24a —
28a.

2
STATEMENT
A. Factual Circumstances
Specialist Jeremiah John Flackus-Carlson enlisted in the United States Army
on November 16, 2009, and in less than three years rose from E-1 to E-4. His
successful military career came to a halt during his service in the Republic of Korea,
when he was raped in the bathroom of a local establishment. Thus began the
lengthy chain of failures that ultimately led to Specialist Flackus-Carlson's
unnecessary death in October of 2015.
Following Specialist Flackus-Carlson's honorable discharge on October 1, 2012,
he sought assistance from the Department of Veterans Affairs (hereinafter "VA").
The practitioner conducting the Compensation and Pension medical examination for
the VA, on February 5, 2013, Dr. Leesa Scott-Morrow, J.D., diagnosed Specialist
Flackus-Carlson with: Major Depressive Disorder, recurrent, severe, without
psychotic features, and Post Traumatic Stress Disorder (hereinafter "PTSD"). Dr.
Scott-Morrow further noted that Specialist Flackus-Carlson's prognosis was good if
he remained in extended care. Despite this admonition Specialist Flackus-Carlson's
care from the VA was indifferent and negligent.
Specialist Flackus-Carlson began treatment at the St. Cloud VAMC in October
2014, following inpatient psychiatric treatment in Hilo, Hawaii after overdosing on
his prescribed medication. Specialist Flackus-Carlson was admitted to St. Cloud
VAMC's Residential Rehabilitation Treatment Program (hereinafter "RRTP"). His
initial evaluation recorded 5 or 6 self-reported psychiatric hospitalizations for

3
suicidal ideation, and a pattern of substance abuse well into its second decade.
Despite, again, reporting the Military Sexual Trauma (hereinafter "MST")
Specialist Flackus-Carlson suffered on Active Duty, and a congressional mandate,
pursuant to 38 U.S.C. §1720D, that the VA operate a mental health treatment
program to treat victims of MST, the VA continued to structure its treatment
regime on "standard" psychiatric diagnoses. The VA did not structure its treatment
regime specific to the treatment of MST.
Notwithstanding multiple indicators that Specialist Flackus-Carlson was not
yet suited for outpatient treatment, as well as over the objections of Petitioner and
Specialist Flackus-Carlson's stepfather, Specialist Flackus-Carlson was discharged
from the RRTP after less than 2 months of treatment. Throughout 2015, Specialist
Flackus-Carlson consistently missed scheduled appointments, displayed repetitive
incidences of substance abuse, had persistent suicidal ideations, and was
hospitalized in May for a Vicodin overdose. Specialist Flackus-Carlson's remains
were discovered on November 11, 2015; his death was deemed an opiate overdose.
The following day, the VA finally acknowledged that Specialist Flackus-Carlson was
at high risk for suicide.
B. Procedural Posture
On August 30, 2017, Plaintiff, through counsel, initiated an administrative
claim against the United States for the death of her son, under the provisions of the
Federal Torts Claims Act (hereinafter "FTCA").

On October 19, 2017, the VA

acknowledged initiation of the claim as of September 5, 2017. Despite a request for

4
adjudication of Administrative Claim, on March 2, 2018, the VA remained silent
and no further response was made thereto. Approximately six weeks later, Plaintiff
initiated an FTCA action (0:18-cv-00996) in the United States District Court for the
District of Minnesota. Plaintiff voluntarily dismissed the action on August 27, 2018,
and sought appointment as a trustee for the estate of Jeremiah Flackus-Carlson,
pursuant to Minn. Stat. § 358.06. Plaintiff was appointed as trustee on October 2,
2018, in Minnesota Court File Number: 05-CV-18-1848.

The following day,

Plaintiff, as trustee, initiated the instant FTCA action (0:18-cv-02842) in the United
States District Court for the District of Minnesota.
On December 4, 2018, the United States moved the District Court for an Order
Dismissing Plaintiffs action with prejudice, arguing that the terms "claim" and
"action" are interchangeable, and Plaintiff was obliged to be appointed trustee over
her son's estate prior to initiating the administrative FTCA claim. The District
Court granted the Motion to Dismiss on March 18, 2019. Plaintiff initiated a timely
appeal with the United States Court of Appeals for the Eighth Circuit, which
affirmed the District Court on August 19, 2020. Plaintiff's Petition for a rehearing
en bane was denied on October 23, 2020, and the formal mandate, pursuant to Fed.
R. App. P 41(a), issued on October 30, 2020. This Petition for Certiorari follows.
REASONS FOR GRANTING THE PETITION
It is common knowledge that "the United States, as sovereign, 'is immune from
suit save as it consents to be sued. . . and the terms of its consent to be sued in any

5
court define that court's jurisdiction to entertain the suit." The FTCA operates as a
"limited waiver of sovereign immunity for tort suits brought against the United
States or its agencies.2 The FTCA requires that a claim be presented to the agency,
and either be finally denied by the agency or six months lapse with no answer from
the agency, before the claimant may sue in the federal district court.3 Congress
empowered federal agencies to settle claims.4 In addition, Congress permitted the
Attorney General to promulgate claims processing rules.5 The Attorney General has
promulgated such rules and, as far as is relevant here, the Seventh Circuit held
that the rule mandates "this presentment requirement has four elements: (1)
notification of the incident; (2) demand for a sum certain; (3) title or capacity of the
person signing; and (4) evidence of the person's authority to represent the
claimant."6
This case is the perfect vehicle to resolve the circuit split. This is a case where
the "question of importance [has] not heretofore decided by this Court, and one over
which the Circuits are divided."7 Additionally, the question of evidence of authority
problems in FTCA presentments has resulted in a "narrow but recurring question
on which the courts of appeals have divided." As laid out further infra, there is

1 United States v. Testan, 424 U.S. 392, 399 (1976)(citing references omitted).
2 Pleasant v. United States ex rel. Overton Brooks VAR, 764 F.3d 445, 448 (5th Cir. 2014)(citing
references omitted).
3 See 28 U.S.C. §2675.
4 Warren v . U.S. Dep't. of the Interior Bureau of Land Mgrat., 724 F.2d 776, 778 (9th Cir. 1984)(en
banc).
5 See 28 U.S.C. §2672.
6 Chronis v. United States, 932 F.3d 544, 547 (7th Cir. 2019).
7 Lehman v. Lycoming Cty. Children's Servs. Agency, 458 U.S. 502, 507 (1982).
8 Clay v. United States, 537 U.S. 522, 524 (2003).

6
"longstanding division in authority among the Courts of Appeals on this question"
that merits this Court's review.9
A. The Evidence of Authority Requirement in Presentment Cannot
be Jurisdictional under this Court's Precedent
During the October Term 2018, this Court revisited subject-matter jurisdiction
to determine whether procedural rules are jurisdictional in nature. There are two
situations in which the Supreme Court has held that a procedural rule is
jurisdictional in nature: either "Congress may ... incorporat[e] them into a
jurisdictional provision, as Congress has done with the amount-in-controversy
requirement for federal court jurisdiction ..." or the Court will "treat a requirement
as 'jurisdictional' when 'a long line of [S]upreme Cour[t] decisions left undisturbed
by Congress' attached a jurisdictional label to the prescription."19 Here, neither
condition is satisfied.
The first condition, that Congress has incorporated a procedural rule into a
jurisdictional statute, has plainly not been met. The jurisdiction conferring statute
in this case provides that "[s]ubject to the provisions of chapter 171 of this title, the
district courts ... shall have exclusive jurisdiction of civil actions on claims against
the United States, for money damages ...."11 However, the Supreme Court recently
recognized that "when Congress does not rank a [prescription] as jurisdictional,

9 DePierre v. United States, 564 U.S. 70, 78 (2011).
10 Fort Bend County, Texas v. Davis, 139 S. Ct. 1843, 1849 (2019).
11 28 U.S.C. §1346(b)(1).

7
courts should treat the restriction as nonjurisdictional in nature."12 Here, the only
requirements that Congress sought to treat as jurisdictional, by incorporating them
into the statute, as a supermajority of other circuits have recognized, is that a claim
submitted under the FTCA must be in writing and contain a sum certain.13 As the E
Court aptly noted in its 2011 decision, "the FTCA does not expressly articulate in
§2671, its definitions section, what information must be included in a properly
'

presented' claim."14 The Eighth Circuit's decision in Mader, admittedly decided

before Fort Bend County, plainly does not recognize the four-step framework for
testing regulations laid down in a case which also emanated from the Department
of Veterans Affairs.15
This Court's recent jurisprudence seems to indicate that treating the evidence of
authority as jurisdictional, as the Eighth Circuit has done and continues to do, is
inaccurate.
With the foregoing lack of clarity, it is not a surprise that the lower courts have
developed different approaches as to whether evidence of authority must be
presented with the claim. The Eighth Circuit noted in its 2011 decision that "there
remains judicial discord over whether §2675(a) requires presentation of all of the
evidence listed in §14.2(a). Specifically, courts have disagreed about whether

12 Fort Bend County, Texas v. Davis, 139 S. Ct. 1843, 1850 (2019)(internal citation
omitted)(emphasis added).
13 See 28 U.S.C. §2675. The claim submitted in writing is in subsection (a), while the sum certain is
derived from subsection (b).
14 Mader v. United States, 654 F.3d 794, 798 (8th Cir. 2011)(en banc).
15 Kisor v. Wilkie, 137 S. Ct. 2400, 2415-17 (2019).

8
§2675(a) requires presentation of evidence of a representative's authority to submit
a claim on behalf of a claimant."16
Since Mader was decided, the Supreme Court has intervened and determined
that "procedural rules, ..., cabin a court's power only if Congress has 'clearly
state[d] as much."17 The Eighth Circuit, however, determined that its jurisdictional
interpretation of presentment was not found in the express words of the statute but
rather were "buttressed by the legislative history of §§2675(a) and 2672."18
Therefore, as this Court ruled, and what is missing in Mader, is that "traditional
tools of statutory construction must plainly show that Congress imbued a
procedural bar with jurisdictional consequences."19 Instead, the Eighth Circuit held
that there was "no occasion to defer and no point in asking what kind of deference,
or how much,' because §14.2(a)'s interpretation of §2675(a) is the interpretation 'we
would adopt even if there were no formal rule and we were interpreting the statute
from scratch."20 This is far from the approach this Court sanctioned in Kwai Fun
Wong and Kisor.
Additionally, addressing the circuit split exacerbated by the Eighth Circuit's
decision in Mader will also resolve the circuit split created a decade ago. Most
circuits have held, both pre- and post-Mader, that proper presentment occurs when
a claim is presented to an agency containing sufficient information for the agency to

Mader v. United States, 654 F.3d 794, 798 (8th Cir. 2011)(en banc)(citing references omitted).
United States v. Kwai Fun Wong, 135 S. Ct. 1625, 1632 (2015).
18 Mader v. United States, 654 F.3d 794, 803 (8th Cir. 2011)(en banc).
19 United States v. Kwai Fun Wong, 135 S. Ct. 1625, 1632 (2015).
2° Mader v. United States, 654 F.3d 794, 804 (8th Cir. 2011)(en banc).

16

17

9
investigate and a demand for a sum certain.21 It is only the Eighth Circuit that
hangs onto an archaic remnant of prior practice.
B. There Is a Circuit Conflict
Decades ago, this Court stated the purpose of the presentment requirement is to
allow agencies to investigate and settle cases, where appropriate, without use of the
federal courts.22 Without uniform guidance from this Court, the circuits appear to
have developed three main approaches to the evidence of authority to act
conundrum.
The three main approaches appear to be "full notice", "minimal notice", or
examination case-by-case". Full notice, as the Seventh Circuit held, mandates "this
presentment requirement has four elements: (1) notification of the incident; (2)
demand for a sum certain; (3) title or capacity of the person signing; and (4)
evidence of the person's authority to represent the claimant."23 The Ninth Circuit,
sitting en bane, held that "[m]inimal notice requires claimants to (1) give an agency
sufficient written notice to commence investigation and (2) place a value on the
claim."24 The First Circuit has described the minimal notice test "under §2675(a) as
'an eminently pragmatic one: as long as the language of an administrative claim
serves due notice that the agency should investigate the possibility of particular
(potentially tortious) conduct and includes a specification of the damages sought, it

See, e.g., Pleasant v. United States ex rel. Overton Brooks VAH, 764 F.3d 445 (5th Cir. 2014);
McNeil v United States, 508 U.S. 106, 111-12 & n.7 (1993).
23 Chronis v. United States, 932 F.3d 544, 547 (7th Cir. 2019).
24 Warren v. U.S. Dept. of Interior Bureau of Land Mgmt., 724 F.2d 776, 779 (9th Cir. 1984)(en banc).
21

22

10
fulfills the notice-of-claim requirement."25 At least two circuits engage in an
examination on a case-by-case basis to determine whether or not the failures in the
claim hindered the agency from settling the claim, which was the primary intent of
Congress.26
1. Seven Circuits Have Adopted the Minimal Notice Requirement
a. First Circuit
Almost thirty years ago, the First Circuit acknowledged that because "the
additional information [required by 28 C.F.R. §14.2(a)] is not relevant for notice
purposes, this circuit has followed the general shift among all circuits toward a
recognition of the distinction between presenting a claim in a section 2675 context
and presenting a claim for settlement purposes."27 The First Circuit accordingly
ruled that "only after the process of settlement has been initiated does the
additional information required by the regulations become relevant. All that is
needed for notice is what the statute specifies."28 In the context of another VA
medical malpractice claim, the First Circuit examined the presentment issue and
confirmed their view that "Nile claimant need only indicate on the SF-95 `(1)
sufficient information for the agency to investigate the claims, and (2) the amount of
damages sought."29 Indeed, the First Circuit also noted that "to file an
administrative claim and preserve one's rights under the FTCA, one need only be in

25 Estate of Trentadue ex rel. Aguilar v. United States, 397 F.3d 840, 852 (10th Cir. 2005)(citing
Dynamic Image Technologies, Inc. v. United States, 221 F.3d 34, 40 (1st Cir. 2000).
26 See, e.g., Romulus v. United States, 160 F.3d 161 (2d. Cir. 1998).
27 Santiago-Ramirez v. Sec'y of Dep't of Defense, 984 F.2d 16, 19 (1st Cir. 1992).
28 Santiago-Ramirez v. Sec'y of Dep't of Defense, 984 F.2d 16, 19 (1st Cir. 1992).
29 Skwira v. United States, 344 F.3d 64, 70 (1st Cir. 2003)(citing reference omitted).

11
possession of 'sufficient information for the agency to investigate the claims."30
Most recently, the First Circuit stated that they view "the notice requirement
leniently, 'recognizing that individuals wishing to sue the government must comply
with the details of the law, but also keeping in mind that the law was not intended
to put up a barrier of technicalities to defeat their claims.'"31
b. Third Circuit
The Third Circuit holds that "a claim against the United States ... satisfies
section 2675's requirement that 'the claimant shall have first presented the claim to
the appropriate Federal agency' if the claimant (1) gives the agency written notice of
his or her claim sufficient to enable the agency to investigate and (2) places a value
on his or her claim."32 The Third Circuit has continued to hold to this rule in more
recent unpublished decisions.33
c. Fourth Circuit
The Fourth Circuit has held that Isiection 2675(a) of Title 28 and 28 C.F.R.
§14.2(a) require two elements for sufficient presentment of a claim to an agency: 1)
written notice sufficient to cause the agency to investigate, and 2) a sum-certain
value on the claim."34
Just a year ago, a district court in the Fourth Circuit denied the Government's
motion to dismiss a veteran FTCA action on behalf of his deceased son even though
the plaintiff in that case was not approved as the personal representative until
Skwira v. United States, 344 F.3d 64, 70 (1st Cir. 2003)(citing reference omitted).
Holloway v. United States, 845 F.3d 487, 490 (1st Cir. 2017)(citing references omitted).
22 Tucker v. U.S. Postal Service, 676 F.2d 954 (3d. Cir. 1982).
32 See, e.g., Walker v. United States, 616 Fed. Appx. 497, 499 (3d. Cir. 2015).
34 Ahmed v. United States, 30 F.3d 514, 517 (4th Cir. 1994).

3°

31

12
three months after the FTCA suit was filed in the United States District Court.35
The situation is strikingly similar to the case before this Court. The Petitioner here
petitioned the agency as the next-of-kin of the Deceased, but gained the authority of
Trustee that was required under Minnesota law before filing the instant suit in the
District Court.36
d. Fifth Circuit
Three years after the Eighth Circuit's decision in Mader, the Fifth Circuit was
called upon to determine whether lack of presenting the VA with evidence of
authority to act was a jurisdictional defect.37 In that case, the plaintiff did not have
the legal authority to act on behalf of the children at any point.38 However, the Fifth
Circuit concluded that "an FTCA notice of claim need not be filed by a party with
the legal authority or capacity under state law to represent the beneficiaries in
state court. [Such authority] is not required simply to put the government on notice
of the nature and value of a claim."38
e. Sixth Circuit
For thirty years, the Sixth Circuit has held that they "agree with the Fifth
Circuit that the requirements of §2675 are met 'if the claimant (1) gives the agency
written notice of his or her claim sufficient to enable the agency to investigate and

35 Washington v. Dep't. of the Navy, 446 F. Supp. 3d. 20, 23-25 (E.D.N.C. 2020)(explaining that
father filed suit in June 2019 but did not obtain authority to act until September 2019).
38 See Minn. Stat. §573.02 (requiring a trustee be appointed "to commence or continue [an] action
and obtain recovery of damages therein.")
37 Pleasant v. United States ex rel. Overton Brooks VAN, 764 F.3d 445 (5th Cir. 2014).
38 Pleasant v. United States ex rel. Overton Brooks VAN, 764 F.3d 445, 448 (5th Cir. 2014).
39 Pleasant v. United States ex rel. Overton Brooks VAN, 764 F.3d 445, 451 (5th Cir. 2014).

13
(2) places a value on his or her claim."40 The district courts in the Sixth Circuit
have continued to hold to this rule in more recent unpublished decisions by noting
that "any failure to comply with the regulation capacity and authority requirements
is meaningless in the Sixth Circuit for determining jurisdiction."41
f. Ninth Circuit
For almost thirty years, the Ninth Circuit has held that "Congress did not
intend to treat regulations promulgated pursuant to section 2672 as jurisdictional
prerequisites under section 2675(a)."42 Almost twenty years ago, the Ninth Circuit
continued to hold that only notice and a sum certain are the sole jurisdictional
elements of a claim.43
g. Tenth Circuit
The Tenth Circuit has consistently followed the lead of the Ninth Circuit in
following their analysis under Warren.44 In one of the circuit's most recent decisions
relying on Warren, the court reaffirmed Bradley in holding that "Wile jurisdictional
statute, 28 U.S.C. §2675(a), 'requires that claims for damages against the
government be presented to the appropriate federal agency by filing "(1) a written
statement sufficiently describing the injury to enable the agency to begin its own
investigation, and (2) a sum certain damages claim."45 Additionally, the Tenth

Douglas v. United States, 658 F.2d 445 (6th Cir. 1981).
Schaefer v. United States, 2014 WL 585365 (S.D. Ohio Feb. 14, 2014)
42 Warren v. U.S. Dept. of Interior Bureau of Land Management, 724 F.2d 776, 778 (9th Cir. 1984)(en
bane).
43 Blair v. IRS, 304 F.3d 861, 865 (9th Cir. 2002).
44 See, e.g., Bradley v. United States, 951 F.2d 268 (10th Cir. 1991); Cizek v. United States, 953 F.2d
1232 (10th Cir. 1992); Trentadue v. United States, 386 F.3d 1322 (10th Cir. 2004).
45 Estate of Trentadue ex rel. Aguilar v. United States, 397 F.3d 840, 852 (10th Cir. 2005).
45

41

14
Circuit stressed that they "agree[d] that the FTCA's notice requirements should not
be interpreted inflexibly."48
h. Eleventh Circuit
The Eleventh Circuit has held, post-Mader, that "[a] claim is deemed presented
when the federal agency receives the claimant's SF-95 or other written notification
of [the] incident, accompanied by a claim for money damages in a sum certain for
injury to or loss of property, personal injury, or death alleged to have occurred by
reason of the incident."47
i. D.C. Circuit
The D.C. Circuit has weighed in on the issue of whether evidence of authority of
act is jurisdictional. The D.C. Circuit held, consistent "with the Ninth Circuit and
the majority of appellate courts to have considered the question, that Section
2675(a) requires a claimant to file (1) a written statement sufficiently describing the
injury to enable to begin its own investigation, and (2) a sum-certain damages
claim."48 Further, the D.0 Circuit ruled that "[a] presentment of this character
provides the agency all it needs, and all to which it is statutorily entitled, to make
final disposition of the claim in accordance with Section 2675(a)."49 Additionally,
concerning the Attorney General's regulation, the D.C. Circuit held that "[a]long
with the Fifth, Sixth, and Ninth Circuits, we hold that Congress has not delegated

Estate of Trentadue ex rel. Aguilar v. United States, 397 F.3d 840, 853 (10th Cir. 2005).
Motta ex rel. A.M. v. United States, 717 F.3d 840, 843-44 (11th Cir. 2013).
48 GAF Corp. v. United States, 818 F.2d 901, 919 (D.C. Cir. 1987).
49 GAF Corp. v. United States, 818 F.2d 901, 920 (D.C. Cir. 1987).
46

47

15
to the agencies the power to determine, by regulation, the jurisdiction of Article III
courts under the Act."50
2. Two Circuits Follow the Case-by-Case Examination Method.
a. Second Circuit
In the Second Circuit, "a Notice of Claim filed pursuant to the FTCA must
provide enough information to permit the agency to conduct an investigation and to
estimate the claim's worth. [Citing reference omitted.] A claim must be specific
enough to permit the agency to serve the purpose of the FTCA to enable the federal
government to expedite the fair settlement of tort claims."51b. Seventh Circuit
The Seventh Circuit employs a flexible test to ensure that the purpose of the
claim process is not frustrated.52 The circuit's main question is "[w]hy should courts
stand in punctilious adherence to unimportant elements of the regulatory definition
of a 'claim' under the FTCA?"53 While the plaintiff in that case lost on evidence of
authority to act, he did so because the agency asked him for evidence of authority to
act and he did not respond to the agency's request for evidence of his authority to
act.54 The outcome of that case is inapposite here where the agency did not request
such evidence of authority. Indeed, the Seventh Circuit recognized that "the United
States could not use its own noncompliance as a defense to liability."55 That is the

GAF Corp. v. United States, 818 F.2d 901, 920 (D.C. Cir. 1987).
Romulus v. United States, 160 F.3d 131, 132 (2d. Cir. 1998).
52 Kanar v. United States, 118 F.3d 527 (7th Cir. 1997).
53 Kanar v. United States, 118 F.3d 527, 531 (7th Cir. 1997).
54 Kanar v. United States, 118 F.3d 527, 531 (7th Cir. 1997).
55 Kanar v. United States, 118 F.3d 527, 531 (7th Cir. 1997).
50

51

16
position of the Government here: they seek to use their own failure to ask for
evidence of authority to act as a defense to liability. This is the classic doctrine of
unclean hands and should not be endorsed by this Court.
In 2019, a Seventh Circuit panel held that "[a] claim has been presented to a
federal agency once the plaintiff submits 'an executed Standard Form 95 or other
written notification of an incident, accompanied by a claim for money damages in a
form certain."56 The Seventh Circuit recognizes that the "presentment requirement
has four elements: (1) notification of the incident; (2) demand for a sum certain; (3)
title or capacity of the person signing; and (4) evidence of the person's authority to
represent the claimant."57 However, failing to meet these elements "is 'only fatal if
it can be said to have "hindered" or "thwarted" the settlement process "that
Congress created as a prelude to litigation."58
3. One Circuit Follows the Full Notice Test
a. Eighth Circuit
In the Eighth Circuit, a claimant must provide, at the time of submission of the
claim to an agency, notification of the incident, demand for a sum certain, title or
capacity of the person signing, and evidence of the person's authority to represent
the claimant.59
4. Excepting the Federal Circuit, All Circuits Have Spoken and Not of
One Voice

Chronis v. United States, 932 F.3d 544, 546-47 (7th Cir. 2019).
Chronis v. United States, 932 F.3d 544, 547 (7th Cir. 2019).
88 Chronis v. United States, 932 F.3d 544, 547 (7th Cir. 2019).
89 See generally Mader v. United States, 654 F.3d 794 (8th Cir. 2011)(en bane).
66

67

17
As the D.C. Circuit noted, "Mlle sufficiency of presentments for jurisdictional
purposes remain a matter for the courts to determine in light of the statutory
framework."60 However, almost the entirety of the federal appellate judiciary has
weighed in on the issue of whether evidence of authority is required as part of
presentment of a claim. As the circuit courts do not agree on what constitutes
sufficiency of presentments under the statutes, and some circuits have called into
question the validity of the Attorney General's regulations, this case should be
resolved by this Court. There is no longer a good reason that "this Court should
postpone consideration of the issue until more ... federal circuits have experimented
with substantive and procedural solutions to the problem."61
IMPORTANT QUESTION
The FTCA is a waiver of sovereign immunity. Pursuant to the statute, the
Attorney General has issued regulations that increase the requirements on a person
attempting to hold the Government to account for their actions. The statute allows
the Attorney General to promulgate regulations to "consider, ascertain, adjust,
determine, compromise, and settle any claim for money damages against the United
States".62 However, the statute does not expressly, or even impliedly, authorize the
Attorney General to define the term "claim", or add to the jurisdictional burdens a
claimant must clear to submit a claim."63 Furthermore, the Eighth Circuit has

GAF Corp. v. United States, 818 F.2d 901, 920 (D.C. Cir. 1987).
Gilliard v. Mississippi, 464 U.S. 867, 869 (1983) (Marshall, J., dissenting from the denial of cert.);
cf. Mathis v. Shulkin, 137 S. Ct. 1994-95 (2017)(Sotomayor, J. dissenting from denial of cert. on the
grounds that the Federal Circuit and the Ct. App. Vet. Cl. could continue their dialogue).
62 28 U.S.C. §2672.
63 See Kanar v. United States, 118 F.2d 527, 528 (7th Cir. 1997)(discussing the ability to litigate
despite the regulation).
60

61

18
interpreted this regulation in a manner far more restrictive than any of the other
circuits. Even if the Attorney General had the authority to add to the plain
language of the statute, the Eighth Circuit has gone beyond what Congress
envisioned to constitute authority to initiate a claim.
The presence of the Government is pervasive across America. In very few
instances, however, is the Government's presence more pervasive than in Veterans'
healthcare. The Petitioner here is unable to vindicate the tragic rape of her son
directly against the Department of the Army due to this Court's precedent refusing
to extend the FTCA to the military." However, she can (and has) attempted to hold
responsible the Veterans Health Administration whose failures resulted in the
passing of her son. This is what the FTCA explicitly allows through its own terms.
The fact that two separate circuits (the Ninth and the Eighth), sitting en banc,65
have come to opposite conclusions on the law surrounding what she needs to
present in a claim to the Department of Veterans Affairs, and when, to demonstrate
her authority to seek justice on behalf of her dead son demonstrates that this
Court's supervisory authority is needed to review this question.
THIS CASE IS A GOOD VEHICLE FOR RESOLVING THE DISPUTE
This case is a good vehicle for reviewing the question presented. The answer to
whether or not the Attorney General's regulation is facially valid is in dispute.66

Feres v. United States, 340 U.S. 135 (1950).
The 1st, 2nd, 3rd, 4th, 5th, 6th, 7th, 10th , 11th, and D.C. Circuit Courts have all issued panel opinions
contrary to the en banc holding of the 8th Circuit.
66 GAF Corp. v. United States, 818 F.2d 901, 920 (D.C. Cir. 1987)("we hold that Congress has not
delegated to the agencies the power to determine, by regulation, the jurisdiction of Article III courts
under the Act.").

64

65

19
The Attorney General provides that "[f]u purposes of the provisions of 28 U.S.C.
§2401(b), 2672, and 2675, a claim shall be deemed to have been presented when a
Federal agency receives ... an executed Standard Form 95 ... accompanied by a
claim for money damages ... and is accompanied by evidence of his authority to
present a claim on behalf of the claimant as agent, executor, administrator, parent,
guardian, or other representative."67 However, several circuits have held that the
Attorney General's regulation creates hurdles not required by Congress. Here,
Petitioner sought the authority of the Benton County, Minnesota, District Court to
be her son's estate's trustee before initiating the instant action. Petitioner had all
the authority necessary to initiate a claim in front of the agency as the natural
mother of the decedent. Petitioner then gained the additional authority she needed
to file an action with the United States District Court as the trustee of her son's
estate. The plain language of 28 U.S.C. §2675(a) differentiates between a claim and
an action. The agency, and the Eighth Circuit, are the only authorities who consider
the terms to be synonymous and interchangeable. Allowing the Eighth Circuit's
decision to stand creates an Equal Protection problem. Americans residing
everywhere else except the seven states the Eighth Circuit serves need only follow
the minimal notice standards established by Congress, rather than the additional
requirements promulgated by an administrative agency and adopted by the Eighth
Circuit. Petitioner's Standard Form 95, concededly timely filed with the agency,

contained all the evidence "[the agency] need[ed], and all to which it [was]

67

28 C.F.R. §14.2(a).

20
statutorily entitled, to make final disposition of the claim in accordance with
Section 2675(a)."68
Additionally, the case was halted at the motion to dismiss stage. Resolving the
evidence of authority /dispute will allow this case to proceed into discovery and,
ultimately, either motions for summary judgment or trial on the merits. Therefore,
the answer to the question will have an enormous effect on the outcome of the case
and, indeed, for all those in the Eighth Circuit affected by Mader, and provide
uniformity throughout the Nation.
CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully submitted.
Dated: March 22, 2021

FRANCIS WHITE LAW, PLLC
ATTORNEYS FJM PETITIONER

BY: Brian K. Lewis, Esq.
Counsel of Record
8362 Tamarack Village, Suite 119-220
Woodbury, Minnesota 55125
Tel: (651) 829-1503
Fax: (651) 714-7119
S. Ct. Bar ID #351120

68

GAF Corp. v. United States, 818 F.2d 901, 920 (D.C. Cir. 1987).

